              I

              f%0                          NATIONAL SCIENCE FOUNDATION
                                           OFFICE OF INSPECTOR GENERAL
                                             OFFICE OF INVESTIGATIONS


                               CLOSEOUT MEMORANDUM

11   Case Number: A03040019                                                      Page 1 of 1



         During a panel discussion a t the end of April 2003, the panel discussed two
         allegations that the NSF Program Managers subsequently brought to our attention.
         The first allegation was that the subject,l who was the PI on proposal 1 2 and a co-PI
         on proposal 2,s used text from his previous publications in proposals 1-2without
         citing his previous publications, i.e., what is commonly referred to as 'self-
         plagiarism'. The second allegation is the subject did not disclose the existence of
         proposal 2 on the Current and Pending Support (C&PS) form in proposal 1and vice
         versa.4
         'Self-plagiarism' does not meet our definition of plagiarism, which is defined as "the
         appropriation of anotherperson's ideas, processes, results, or words without giving
         appropriate credit."5 While it would have been better to reference his paper, and it
         may seem odd that he did not, self-plagiarism is not research misconduct within our
         definition. Thus, the first allegation was dismissed.
         Regarding the C&PS forms, the reason each proposal was not disclosed within the
         other is because the subject's C&PS form is not present in either proposal, and he is
         the common link between these two proposals. Instead of the subject's C&PS,
         proposal 1contains the CP&S of a co-PI on proposal 2.6 The PI'S and the other co-
         PI'S C&PS forms are both in proposal 2. Clearly, these proposals were prepared a t
         the same time (in fact, they were submitted by the university only hours apart), and
         it appears the proposals were rather clumsily prepared. We sent the subject a letter
         suggesting he more carefully prepare his submissions to NSF and provided a URL
         for NSF's Grant Proposal Guide.7 Accordingly, this case is closed




              (footnote redacted).
              (footnote redacted).
              (footnote redacted).
              These proposals were reviewed by the same panel.
            5 See 45 CFR 5 689.1(3); emphasis added.
              (footnote redacted).
            7 http://~~~.nsf.gov/pubs/2003/nsf03041/nsf03~041.pdf
